No:
IN THE
SUPREME COURT OF THE UNITED STATES

JOSE ANTONIO MORALES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Jose Antonio Morales, through undersigned counsel and pursuant
to SUP. CT. R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 27th day of September, 2021, which is
the time the petition for writ of certiorari is due.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 27, 2021

By:

s/Michael Caruso
150 West Flagler Street, Suite 1700
Miami, Florida 33130-1555
(305) 536-6900

